CbNFIDENTIAL                                                                     CbNFIDENTIAL




      National Science Foundation 

      Office of Inspector General 





                                 C:Onfidential 

                   Report of Investigation 

               Case Number A-09040026 

                        12 Novelllber 2010 

                 This Confidential Report of Investigation is provided to you
                                  FOR OFFICIAL USE ONLY.
 It contains protected personal infonnation, the unauthorized disclosure of which may result in
 personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
 disclosed within NSF only to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Infonnation and Privacy Acts, 5 U.S.C. §§ 552 &
 552a. Please take appropriate precautions handling this confidential report ofinvestigation.

                                                                             NSF OIG Fonn 22b (11/06)
